             Evaluation of the Sufficiency of Existing Data to Estimate

                     the Impact of Improper Payments on the 

                     Railroad Retirement Act Benefit Program

                       Report No. 03-12, September 17, 2003 



                                EXECUTIVE SUMMARY 


This report presents the results of the Office of Inspector General’s evaluation of the
sufficiency of existing data to estimate the impact of improper payments on the Railroad
Retirement Act (RRA) benefit program. The Railroad Retirement Board (RRB)
administers comprehensive retirement-survivor benefit programs mandated by the RRA.

The Improper Payments Information Act of 2002 requires agency heads to annually
review all programs and identify those that may be susceptible to significant improper
payments. In May 2003, the Office of Management and Budget (OMB) issued guidance
that defines “significant improper payments” as annual erroneous payments exceeding
both 2.5 % of program payments and $10 million.

As a test of the sufficiency of existing data to support the annual review required under
the Improper Payments Information Act, we attempted to estimate the extent of
improper payments in the RRA program using data drawn from the RRB’s benefit
payment and accounting systems. Our fieldwork also included tests of selected
overpayment transactions related to the death of an annuitant and concurrent
entitlement to Social Security benefits.

We were able to conclude that the RRA program does not experience improper
payments in excess of the 2.5% threshold established by OMB. However, limitations on
the available data restricted our ability to develop a more precise estimate of monetary
impact. For example, we were unable to adjust our estimate for overpayments and
underpayments related to prior fiscal years, and could not eliminate all transactions that
did not meet OMB’s definition of improper payments.

Our tests included an assessment of the impact of payment processing cut-off dates on
the RRA program’s overpayment experience when accounts receivable are established
as a result of an annuitant’s death. Our review of a random sample of 312
overpayments established due to the death of the annuitant indicates that approximately
$16 million (or 50%) were associated with notices of death received after the cut-off
date for monthly payment processing.

We also examined the RRA program’s overpayment experience for accounts receivable
established as a result of an annuitant’s concurrent entitlement to Social Security
benefits. We observed that certain routine adjustments are recognized as debt; some
overpayments due to concurrent entitlement may be avoidable; and the Payment Rate
Entitlement History system does not always report complete information for some Social
Security transactions.
We have recommended that the Office of Programs determine the need for system
enhancements or alternate sources of data to support the annual determination of the
RRA program’s susceptibility to improper payments required by the Improper Payments
Information Act of 2002. We have also offered recommendations for the reduction of
overpayments and the quality of data reported by existing systems. Management
concurs with our findings and recommendations.

                                     INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) evaluation of
the sufficiency of existing data to estimate the impact of improper payments on the
Railroad Retirement Act (RRA) benefit program.

Background

The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB’s primary function is to administer
comprehensive retirement-survivor and unemployment-sickness benefit programs for
the nation’s railroad workers and their families. These benefits are provided under the
RRA and the Railroad Unemployment Insurance Act (RUIA). During fiscal year (FY)
2002, the RRB paid over $8 billion in benefits.

The Improper Payments Information Act of 2002 contains requirements in the areas of
improper payment identification and reporting. It requires agency heads to annually
review all programs and activities, identify those that may be susceptible to significant
improper payments, estimate annual improper payments in the susceptible programs
and activities, and report the results of their improper payment activities. The legislation
also requires the Office of Management and Budget (OMB) to prescribe guidance for
Federal agency use in implementing the act. OMB issued the guidance in May 2003.
OMB’s guidance addresses the specific reporting requirements called for in the act and
lays out the general steps agencies are to perform to meet those requirements. The
guidance defines key terms used in the law, such as programs and activities, and offers
criteria that clarify the meaning of the term “significant improper payments.”

OMB’s Memorandum M-03-13, dated May 13, 2003, outlines how Federal agencies
should implement the Improper Payments Information Act. OMB has defined as
improper any payment that should not have been made or that was made in an
incorrect amount (including inappropriate denials of payment). The terms “improper
payment” and “erroneous payment” have the same meaning.

OMB has defined “significant improper payments” as annual erroneous payments
exceeding both 2.5 % of program payments and $10 million. For those programs and
activities susceptible to significant improper payments, the guidance instructs agencies
to use statistical sampling to estimate its annual improper payment experience based
on the gross total of both overpayments and underpayments.
The program accounts receivable (PAR) system is a mainframe computer application
that supports the agency’s debt recovery operations. It contains the detailed history of
each debt recognized by the RRB, including the cause, amount, collections, outstanding
balance and final disposition. The Payment Rate Entitlement History (PREH) system is
an on-line system that supports RRA benefit payment operations by providing a history
of transactions. The PREH One-Payment-Only record includes detailed history of each
underpayment including the accrual period, type of payment, amount disbursed and any
amounts withheld. The RRB’s general ledger is a collection of all agency financial
accounts, and supports financial management and reporting. The general ledger
summarizes the debt recovery transactions and disbursements that have been recorded
in PAR and PREH.

This evaluation addresses areas of management performance that support the RRB’s
strategic goal of safeguarding agency trust funds through prudent stewardship.

Objective, Scope and Methodology

The objective of this evaluation was to assess the sufficiency of existing data to
estimate the impact of improper payments on the RRA programs. The scope of this
project was limited to the assessment of selected FY 2002 data drawn from the RRB’s
benefit payment and accounting systems.

In order to achieve this objective, we attempted to estimate the extent of RRA program
improper payments. As part of this process, we:

   •   reviewed prior audits,
   •	 obtained and reviewed the Improper Payments Act of 2002 and related OMB
      guidance,
   •   obtained a download of debt established on the PAR system,
   •	 obtained a download of transactions displayed in the One-Pay-Only screen of the
      PREH system,
   •	 analyzed the data obtained from the PAR system to identify transactions that met
      the definition of an improper payment within the meaning of the Improper
      Payments Act,
   •   analyzed selected data obtained from the RRB’s general ledger,
   •	 assessed the impact of payment processing cut-off dates on the effectiveness of
      the agency’s termination action in a random sample of 312 overpayments
      established due to the death of the annuitant, and
   •	 reviewed the 414 overpayments caused by concurrent entitlement to Social
      Security benefits that could not be identified as routine mechanical adjustments
      to assess the potential for improved performance.

The details of our estimation methodology are presented in Appendix I to this report.
Our work was performed in accordance with generally accepted government auditing
standards as applicable to the project’s limited objective. Fieldwork was performed at
the RRB headquarters in Chicago, Illinois during April through July 2003.

                              RESULTS OF EVALUATION

Data currently available in the RRB’s systems is sufficient to support a general estimate
of the magnitude of improper payments. However, limitations on the data available in
the PREH system indicate that existing data would not support an estimate of erroneous
payments sufficient to assess changes in program experience from period to period.

Based on the data reviewed, the OIG has concluded that the RRA program is not
susceptible to significant improper payments within the meaning of the Improper
Payments Information Act, according to the criteria published by OMB. Accordingly, the
RRB will not be required to use statistical sampling to measure its progress in reducing
improper payments in the RRA program.

During our evaluation, we observed that some overpayments related to the death of the
annuitant and concurrent entitlement to Social Security benefits could be reduced or
avoided. We have also noted that the RRB continues its practice of reporting certain
routine Social Security adjustment transactions as debt, thus inflating reports of the
agency’s overpayment experience.

The details of our findings and recommendations follow. The full text of management’s
response is included as Appendix II to this report.

Availability of Data Limits Analysis of Improper Payments

As a test of the sufficiency of existing data, the OIG attempted to estimate the RRA
program’s exposure to improper payments using data drawn from the agency’s general
ledger, the PREH system and the PAR system. We were able to develop a general
estimate that would support evaluation under OMB criteria. However, limitations on the
data precluded the type of precise estimation required to measure improvement in
program performance from year to year.

During our assessment of the RRB’s improper payment experience against OMB
criteria, limitations in the data restricted our ability to estimate actual overpayments and
underpayments. As a result, the OIG’s estimate of $127 million of actual erroneous
payments is overstated because we could not identify and subtract the value of all
transactions that did not meet OMB’s definition or that did not pertain to the period
under examination. For example, we were unable to eliminate overpayments and
underpayments related to:

   •   prior fiscal years,
   •   re-issued benefit payments,
    •   the return of over-reimbursements, and
    •   the recertification of partial awards to final amounts.

In addition, we observed that some overpayments are not recorded in the PAR system
when the overpayment is identified during award computation and is recovered from
accrued benefits. This practice tends to understate reports of the program’s actual
erroneous payment experience. Since these transactions cannot be identified without
an individual case review, they could not be factored into the OIG’s estimate.

Accrual Periods

The PREH One-Pay-Only screen displays fields for the beginning and ending dates of
the period to which accrued payments pertain. In some cases, the accrual period
appears to be incorrect. In several cases, the accrual period was one month; however,
the accrual exceeded $3,000, which is generally more than the average monthly benefit.
We also identified accrual ending dates that preceded the accrual beginning date, and
records with missing accrual ending dates. Without the correct accrual dates, the
payment cannot be associated with payment activity for any given fiscal year.1

Re-Issued Payments and Over-Reimbursements

The RRB is sometimes required to re-issue benefit payments that have not been 

received by the beneficiary. Beneficiaries may report their checks lost, the post office 

may be unable to deliver them, or banks sometimes return electronic fund transfers. 

The agency then researches the problem and re-issues the payment as appropriate. 

Although codes have been established to identify re-issued benefit payments in the 

PREH One-Pay-Only screen, these transactions are not always identified with the 

appropriate code. 


As part of the debt recovery process, the RRB may receive funds or withhold benefits in 

excess of amounts owed. The excess funds are later paid out through the benefit 

payment systems. As with re-issued benefit payments, we were not able to consistently 

identify these over-reimbursement transactions. 


Absent reliable coding, these transactions cannot be identified and eliminated from the 

estimates of the RRA program’s improper payment experience. 


Recertifications of Partial Awards Are Not Reliably Identified

In some situations, the RRB will expedite an initial award of benefits to a first-time 

annuitant by processing a “partial” award which is an estimate based on currently 

available information. Subsequently, the partial award is recomputed based on final 


1
  Auditor observations about the completeness and/or accuracy of the data pertain exclusively to the
manner in which transactions were recorded in the various systems from which we drew data. We did not
test, and have drawn no conclusions concerning the design or operation of the individual systems that
supplied the historical data for this evaluation.
information and any underpayment that has accrued is paid out. Payments made as a
result of the recertification of partial awards to their final amount would not indicate a
prior improper payment within the definition established by OMB.

The PREH system provides for coding to distinguish the recertification of partial awards
from other recertification activity. Our tests disclosed that such coding could not be
relied upon because the codes that identified partial-to-final activity had been used to
identify other types of transactions. As a result, we could not eliminate these
transactions from our estimate of the RRA program’s improper payment experience.

Some Overpayments are Not Recorded in PAR

The first payment issued after an application for benefits has been adjudicated is
termed the “initial award.” The initial award of benefits may include a retroactive
payment of up to 12 months of benefits. Payments for prior periods are processed as
accruals outside of the regular monthly check issue operation.

Payment activity described as “initial” may include other activity such as recovery of
overpayments. In some cases, these overpayments may not be recorded on the PAR
system. Although the accrual is not an improper payment, the related overpayments
would be considered an improper payment and should be accounted for as such. The
current process does not support identification of overpayments associated with initial
activity.

Agency Quality Assurance Studies

In developing our assessment of the RRA programs exposure to improper payments,
we considered the results of quality assurance studies performed by the Office of
Programs. The high rate of payment accuracy reported by these studies played an
important part in the OIG’s current assessment of the potential for erroneous payments
in excess of the OMB threshold. For purposes of the present assessment, we were
able to rely on the Office of Program’s studies to the extent that they associate relatively
low monetary impact with adjudicative error.

However, in October 2002, the OIG reported that the Office of Programs’ annual studies
of adjudicative accuracy would not serve as a comprehensive estimate of the monetary
impact of improper payments.2 We observed that the study’s value as a risk
assessment tool could be enhanced by expanding the study’s scope to measure the
monetary impact of three types of errors that are currently excluded from the
computation of case and payment accuracy.

As a result of the OIG’s report, the Office of Programs agreed to expand the study’s
scope to capture the cost of errors in the application of temporary work deductions and

“Effectiveness of the RRA Quality Assurance Program in Estimating Exposure to Improper Payments,”
2

OIG Audit Report #03-01, October 9, 2002.
to consider developing a methodology to measure the monetary impact of errors that do
not affect recurring payment rates. They rejected a recommendation to revise the study
methodology to capture the cost of certain errors that are later corrected as a result of
system edits, review referrals and other controls.

Recommendation

   1. 	 We recommend that the Office of Programs determine the need for system
        enhancements or alternate sources of data to support the annual determination
        of the RRA program’s susceptibility to improper payments required by the
        Improper Payments Information Act of 2002.

Management’s Response

The Office of Programs agrees and noted that they are already developing their
methodology.

RRB’s Experience with Improper Payments

In our opinion, the RRA benefit program does not experience significant improper
payments based on the criteria established by OMB pursuant to the Improper Payments
Act of 2002. Our review of existing data disclosed nothing to indicate that the agency’s
experience with improper payments exceeds the OMB threshold of 2.5% of program
payments. Accordingly, the RRB is not required to perform statistical sampling to
measure and monitor improper payments in the RRA program.

To determine whether the RRA benefit program is subject to significant improper
payments within the meaning of the Improper Payments Act of 2002, we used OMB’s
criteria. We estimated $217 million, 2.5% of the approximately $8.7 billion in benefits
paid under the provisions of the RRA during FY 2002, as the threshold amount for
determining whether improper payments in the RRA should be considered significant.
Improper or erroneous payments are defined as payments that should not have been
made or were made for the incorrect amount. Improper payments include both
overpayments and underpayments both actual and potential.

Using selected data drawn from the agency’s general ledger, the PAR system and the
PREH system, we assessed the RRA program’s known experience with improper
payments based on corrections to annuitant payment records. Corrections in the
payment record are evidenced by the recognition of debt and the payment of benefits
outside of the monthly check issue.
Based on our analysis of available data, we estimate that actual improper payments in
the RRA program did not exceed $127 million in FY 2002. This estimate is based on
the approximately $42 million in RRA program accounts receivable, recognized during
FY 2002, that were associated with benefit overpayments. In addition, the agency paid
approximately $85 million outside of the monthly check issue that could not be
immediately associated with activity other than payment correction.

Since identified improper payments do not exceed $127 million, the RRA program
would be considered to experience significant improper payments only if unidentified
overpayments and underpayment are expected to exceed $90 million. We consider it
improbable that the RRA program experiences unidentified overpayments and
underpayments in excess of $90 million because:

    •	 agency estimates of RRA adjudicative case accuracy typically exceed 90% and
       the estimated cost of inaccuracies are typically under $1 million during the first
       year;
    •	 consistent with the demographics of the RRB’s program, annuitant death is the
       most significant cause of known overpayments and the RRB performs matches
       with the Social Security Administration and the Centers for Medicare and
       Medicaid Services to identify unreported deaths; and
    •	 consistent with a beneficiary population that is nearly 85% over age 65, the RRA
       experiences a relatively low number of overpayments due to post-retirement
       earnings.3

Fraud has been an historic problem in Federal social entitlement programs because of
their reliance on self-disclosure. Although the RRB has implemented a number of
monitoring programs to identify potential fraud, some deaths and earnings may go
undetected. Fraudulent payments that have been identified and subject to recovery are
included in the agency’s accounts receivable experience.

Overpayments Established Due to the Death of the Annuitant

Our tests of PAR data included an assessment of the impact of payment processing
cut-off dates on the RRA program’s overpayment experience when accounts receivable
are established as a result of an annuitant’s death. We observed that constraints on the
automated processing of payments cause some overpayments.

Payments released after the death of the annuitant are the largest single cause of
overpayments recognized by the RRB each year. In FY 2002, the RRB recognized
approximately 28,000 debts, valued in excess of $32 million related to such payments.
Minimizing erroneous payments addresses the agency’s strategic goal to safeguard
customers’ trust funds through prudent stewardship.

3
 Annuitants who have reached full retirement age are not subject to a reduction in benefits if they work for
a non-railroad employer. Full retirement age is 65 for persons born before 1938. Under the RRA,
annuities are not payable to anyone employed by a railroad or railroad labor organization.
Recurring benefits paid under the RRA are issued by the U.S. Department of the
Treasury on the instructions of the RRB. Benefit payments are issued on the first
business day of each month; payment instructions are transmitted electronically on
approximately the 25th of the preceding month. When notice of a terminating event is
received after the cut-off date for monthly payment processing, the RRB is unable to
terminate the annuity before the scheduled release of the next payment, and an
overpayment results.

Our examination of a random sample of 312 overpayments established due to the death
of the annuitant indicates that approximately $16 million (or 50%) were associated with
notices of death received after the cut-off date for monthly payment processing.

The RRB is currently working with the Department of the Treasury’s Philadelphia
Financial Center to implement a process that would permit the agency to intercept
payments during the period between the agency’s release of instructions to pay and the
actual issue of payment by check or electronic fund transfer.

The Office of Programs’ prior efforts to implement a payment intercept program date
back to 1993 when the Department of Treasury’s Chicago Financial Center was
responsible for the RRB’s benefit payment processing. The current initiative is being
coordinated with other enhancements to payment processing operations at the
Philadelphia Financial Center and the Office of Programs is optimistic about the
outcome.

Recommendation

   2. 	 The Office of Programs should continue to pursue implementation of the
        Payment Intercept process to reduce the number of payments released after
        death.

Management’s Response

The Office of Programs agrees with the recommendation. Although they expect to
implement the new process during FY 2004, the actual timing will be dependent on
program changes that must be made by Treasury’s Philadelphia Financial Center.
Overpayments Resulting from Concurrent Entitlement to Social Security Benefits

Our tests of PAR data included an assessment of the impact of transaction processing
on the RRA program’s overpayment experience when accounts receivable are
established as a result of an annuitant’s concurrent entitlement to Social Security
benefits. We observed that:

        •   certain routine adjustments are recognized as debt;
        •	 that some overpayments due to concurrent entitlement may be avoidable;
           and
        •	 that the PREH system does not always report complete information for some
           Social Security transactions.

The tier I portion of an employee annuity must be reduced by the amount of any actual
social security benefit paid on the basis of non-railroad employment.4 Since 1975, if a
beneficiary under the RRA is also awarded Social Security benefits, the Social Security
Administration determines the amount due, but a combined monthly benefit payment is
issued by the RRB.

Routine Social Security Adjustments Recognized As Debt

The RRB records an account receivable for all retroactive annuity adjustments resulting
from concurrent entitlement to Social Security benefits, even when the RRB is
immediately and fully reimbursed by withholding accrued Social Security benefits. As a
result, the RRB records approximately $7 million per year more in debt and related
collections than would otherwise be recognized.

As previously discussed, the tier I portion of an RRA annuity must be reduced for any
Social Security benefits that are concurrently payable. As a result of timing differences
between the date of entitlement to concurrent benefits and notification to the RRB,
reduction of the tier I benefit often requires a retroactive downward adjustment of the
RRA annuity.

Under normal circumstances, retroactive downward adjustment of an annuity requires
the RRB to seek return of the benefit overpayment from the annuitant. However, in
order to facilitate the coordination of benefits between the two agencies, Congress has
authorized the Social Security Administration to certify the Social Security benefits of
Railroad Retirement annuitants to the RRB so that a single combined payment can be
issued. In these cases, termed “LAF Code E,” the retroactive payment of Social


4
 Railroad retirement annuities are calculated under a two-tier formula. The first tier is based on Railroad
Retirement credits and any Social Security credits an employee has acquired. The amount of the first tier
is calculated using Social Security formulas, but with Railroad Retirement age and service requirements.
The second tier is based on Railroad Retirement credits only.
Security benefits becomes a paper transaction in which the full amount of the tier I
reduction for prior periods is withheld from the Social Security benefits that have
accrued unpaid for those periods.5 In most cases, there is never an outstanding
balance to collect.

An account receivable recognizes a claim to cash or other assets; however, the
retroactive adjustment that occurs when Social Security benefits are certified to the
RRB for payment fully reimburses the RRB’s trust funds. No claim to cash from the
public exists. The RRB is effectively recognizing as debt, transactions that were
designed to prevent debt.

Some Overpayments Due To Concurrent Social Security Entitlement May Be Avoidable

Occasionally, Social Security benefits that should be certified to the RRB for payment
are erroneously certified by the Social Security Administration directly to Treasury for
payment. Such cases, referred to as “LAF Code C” cases, may result in an
overpayment of RRA benefits because of delays in making the appropriate reduction to
the recipient’s RRA benefit. The RRB recognized 294 debts, valued at approximately
$1.2 million, due to LAF Code C Social Security benefits during FY 2002.

The average time between the effective date of the Social Security benefits and the
accounting date of the RRB’s benefit adjustment was 8 months. While some
overpayments may have been due to retroactive entitlement, we observed situations in
which the overpayment appeared to be the result of delays in RRB handling. For
example, in 33 (11%) of the cases, the Social Security effective date preceded the
beginning date of the RRA annuity. In some cases, information about the Social
Security entitlement should have been available at the time that the RRA annuity was
initially awarded. Based on the information reviewed, the RRB could have reduced
some overpayments by expediting the handling of the Social Security adjustment and/or
obtaining the Social Security entitlement information prior to payment.

PREH System Does Not Always Report Complete Social Security Information

The lack of complete information about Social Security entitlement impeded the analysis
of the RRA program’s improper payment experience.

We examined 294 cases in which the Social Security Administration is paying benefits
directly to the annuitant. We noted that the PREH screen that reports certain identifying
information about Social Security beneficiaries and benefits did not consistently provide
complete information about payments and entitlement.




5
 The designation “LAF Code E” refers to the coding used in Social Security’s master benefit record. “LAF
Code E” benefits are paid by the Railroad Retirement Board. “LAF Code C” benefits are paid by the
Social Security Administration.
In 64 (22%) cases, the beneficiary’s Social Security information and/or LAF Code was
not available on PREH. Since the Social Security benefit in these cases exceeds the
RRA benefit, the RRA annuity had been terminated. In some cases, all fields were
blank.

In the absence of complete PREH information, auditors reviewed paper claim folders or
documents stored in the RRA document imaging system.

Recommendations

The Office of Programs should:
    3. 	 review examples identified during this evaluation to determine whether the
         circumstances indicate a need for changed procedure or controls that could
         reduce overpayments due to concurrent entitlement to Social Security benefits;
         and
    4. 	 assess the need for changes to procedures or controls to ensure that the PREH
         system reports complete data.

Management in the Bureau of Fiscal Operations rejected a previous OIG
recommendation that the agency end the practice of recognizing a debt and related
account receivable for overpayments resulting from the retroactive downward
adjustment of RRA annuities when recovery is simultaneously achieved by withholding
from accrued Social Security benefits.6 Accordingly, we will make no recommendation
in this matter at the present time.

Management’s Response

The Office of Programs has agreed to review the overpayments questioned by the audit
to determine whether they indicate a need for changed procedure or controls. They will
also evaluate the need to change procedures or controls to ensure that the PREH
system reports complete data on SSA LAF Code C payments.




6
 OIG Management Information Report, “RRA Program Debt Recognition and Collection Experience,”
Report # 01-09, July 26, 2001.
                                                                            Appendix I
                                                                            Page 1 of 2
                        OIG’S ESTIMATION METHODOLOGY

We estimated the RRB known improper payment experience using data drawn from the
agency’s accounting and benefit payment systems. The estimated $127 million is
comprised of $85 million in underpayments and $42 million in overpayments. The
OIG’s methodology in computing the threshold amount for determining significant
improper payments and assessing the RRA programs known experience with such
payments follows.

Computation of the Threshold Amount

Based on the OMB guidance, we estimated the RRB’s threshold for measuring
significant improper payments pursuant to the Improper Payments Act at $217 million.

     •   RRA Benefit Disbursements                                     $ 8,679 Million
     •   RRA Benefits Withheld to Recover RUIA Debt                         14 Million
     •   RRA Benefits withheld to Recover RRA Debt                           6 Million
                                                                      =============
  Total RRA Program Payments                                           $ 8,699 Million

  Improper Payment Threshold (2.5%)                                    $   217 Million

The data used in the above estimate was drawn from the RRB’s general ledger and the
PAR system.

Estimation of Known Underpayment Experience

We estimated the RRA programs maximum actual underpayments at $85 million based
on amounts disbursed outside of the regular monthly check issue. We used the total
amount of benefit disbursements recorded in the general ledger and subtracted the total
amount disbursed during the regular check issue operation.

 Total RRA Program Payments                                            $ 8,699 Million
 Less
       Total Recurring RRA Payments from Master Benefit File           $ 8,534 Million
       Accrued RRA Benefits Associated with Initial Awards                  80 Million
                                                                        ===========
 Out-of-Period Payments                                                $    85 Million

The reduction for payments associated with initial awards is not comprehensive. It is an
estimate based on selected readily identifiable transactions in the PREH one-pay-only
screen.
                                                                               APPENDIX I
                                                                                Page 2 of 2

                         OIG’S ESTIMATION METHODOLOGY

Estimation of Known Overpayments

We estimated the RRA programs known overpayments at $42 million based on
accounts receivable recorded in the PAR system for FY 2002. We used the total of all
RRA receivables recorded and subtracted transactions that are not associated with
erroneous benefit payment.

 RRA Receivables Recognized During FY 2002                               $ 54 Million

 Less Transactions that do not indicate improper payments:
    • transactions recorded as a result of routine adjustments to            7 Million
        the RRA annuity for concurrent entitlement to Social
        Security Benefits when no recovery action is required, and
    • changes in annuity beginning dates due to RRSIA legislation.          5 Million
                                                                     ==============
 Estimated Actual Overpayments                                           $ 42 Million

 Receivables by
    • Death of An RRA Annuitant                                          $ 33 Million    77%
    • SSA Benefit Payments/Adjustments                                      2 Million     5%
    • Earnings in Excess of RRA limitation                                  3 Million     7%
    • Changes to Annuity Beginning Dates                                    1 Million     2%
    • Miscellaneous Other Causes                                            3 Million     9%
                                                                     ==============
                                                                         $ 42 Million    100%
Social Security Benefits Paid by the RRB

The RRB records an account receivable for any retroactive annuity adjustment resulting
from concurrent entitlement to Social Security benefits, even when the RRB is
immediately and fully reimbursed by withholding of accrued Social Security benefits.
Congress has authorized the Social Security Administration to certify the Social Security
benefits of Railroad Retirement annuitants to the RRB so that a single combined
payment can be issued. In these cases, termed “LAF Code E” Social Security cases,
the retroactive payment of Social Security benefits becomes a paper transaction, in
which the full overpayment amount is withheld from the Social Security benefits that
have accrued unpaid for those periods.

RRSIA Legislation

The Railroad Retirement and Survivors Improvement Act of 2001 (RRSIA) made it
advantageous for certain recently retired railroad employees to withdraw their previous
application and re-file for benefits under the provisions of new law. Previously paid
benefits were accounted for as overpayments due to “erroneous annuity beginning
date.” The related receivable was subject to recovery from any benefits payable when
benefits were subsequently awarded under the new application.
